No._______________
In The

Supreme Court of the United States
_______________________________
JIM R. NASH
Petitioner,
V.
NORMA NASH, INDIVIDUALLY AND AS TRUSTEE
OF THE NORMA F. NASH LIVING TRUST, ET AL.
Respondents.
__________________
On Petition For Writ Of Certiorari
To The Arkansas Court Of Appeals
___________________

PETITION FOR WRIT OF CERTIORARI
____________________
J. R. Nash
Pro Se
Nash Law Firm
700 East Ninth Street
Little Rock, AR 72202
(501) 375-7608
nashlaw@sbcglobal.net

QUESTIONS PRESENTED
1) If several states following close versions of Rule 25
(FRCP) have held that judgments without jurisdiction
of the decedent are a nullity, and those same state
courts and at least two U.S. Circuit Courts have
condemned such treatment of the substitution process,
does judgment without jurisdiction here violate
petitioner's right to due process of law under the
Fourteenth Amendment?
2) The effects of state court judgments can cross many
borders. Are we allowing tactics in litigation to
circumvent the importance of personal jurisdiction?

i

PARTIES TO THE PROCEEDING
Petitioner Jim R. Nash was the plaintiff in the state
circuit court proceedings and the appellant in the state
court of appeals proceedings. Respondents Norma
Nash, John Nash, Jr., Pam Glover, Susan Lyle and
Perry Nash were the defendants as individuals and as
trustees for the Norma Nash trust in the state circuit
court and the appellees in the state court of appeals
proceedings. Norma Nash died a year before the trial
in circuit court.
Interested Persons:
Jim R. Nash (pro se)

Counsel of Record:
J. R. Nash
Nash Law Firm
P. O. Box 2455
Little Rock, AR 72203
(501) 375-7608
Ark. Bar No. 70051

Norma Nash, John
Nash, Jr., Pam Glover,
Susan Lyle, Perry
Nash

Ed Daniel, IV, P.A.
103 West Markham St.
Suite 203
Little Rock, AR 72205
(501) 228-4488
Ark. Bar No. 88004

ii

RELATED CASES
Jim R. Nash v. Norma Nash, et al, Pulaski County
Circuit Court, Case No. 60-CV-15-1789, Judgment
entered on June 22, 2017.
Jim R. Nash v. Pul. Cnty. Cir. Crt, 2nd Div. before
Arkansas Supreme Court, Re: Mandamus, Case No.
CV-17-54, Order entered on Mar. 2, 2017.
Jim R. Nash v. Norma Nash, et al, Arkansas Court of
Appeals, Case No. CV-17-827, Opinion delivered on
Mar. 13, 2019.
Jim R. Nash v. Norma Nash, et al, Arkansas Court of
Appeals, Case No. CV-17-827, Order Denying Petition
for Rehearing filed on April 17, 2019.
Jim R. Nash v. Norma Nash, et al, Arkansas Supreme
Court, Case No. CV-17-827, Order denying Petition for
Review filed June 20, 2019.

iii

TABLE OF CONTENTS
QUESTION PRESENTED……………………...

i

PARTIES TO THE PROCEEDING……………

ii

RELATED CASES……………………………….

iii

TABLE OF CONTENTS………………………..

iv

TABLE OF AUTHORITIES……………………

vii

PETITION FOR WRIT OF CERTIORARI…..

1

OPINIONS BELOW…………………………….

1

JURISDICTION…………………………………

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED…………………….

2

STATEMENT OF THE CASE.........................

3

REASONS FOR GRANTING THE
PETITION……………………………………….
I. The State Court Did Not Have Personal
Jurisdiction Of The Decedent And The
Judgment In Her Favor Is A Nullity......
iv

11

11

II. The Abuse Of The Substitution Process
Is In Violation Of Due Process Of Law
Under Fourteenth Amendment And In
Conflict With The Full Faith And
Credit Provisions of the Constitution....... 16
III. Petitioner Did Not Waive Jurisdiction
Of Decedent, Revivor, Or Substitution,
And At No Time During Trial Or On
Appeal Did The Defense Claim
Waiver Of Any Kind................................

22

IV. Why The Main Issue On Appeal
Was Ignored.............................................. 25
CONCLUSION...................................................... 27
APPENDIX
Opinion, Arkansas Court of Appeals,
Division II, Case No. CV-17-827
(Mar. 13, 2019).......................................... Ap1
Judgment, Pulaski County Circuit Court,
2nd Div., Case No. 60-CV-15-1789
(June 22, 2017)........................................ Ap21

v

Dissent to Order Denying Writ Of
Mandamus, Arkansas Supreme
Court, Hart, J., Justice, Case No. CV17-54 (Mar. 2, 2017)..................................... Ap23
Order, Arkansas Supreme Court, Denying
Writ of Mandamus with Dissent,
Hart, J., Justice, Case No. CV-17-54
(Mar. 2, 2017)....................................... Ap25
Order Denying Rehearing, Arkansas
Court of Appeals, Case No. CV-17-827
(April 17, 2019)...................................... Ap27
Order Denying Petition for Review,
Arkansas Supreme Court, Case No.
CV-17-827 (June 20, 2019)................... Ap28
Order Denying Petition for Review,
Arkansas Supreme Court, Copy filed
with Pulaski County Circuit Clerk, Case
No. 60-CV-15-1789 (June 25, 2019)........... Ap29

vi

TABLE OF AUTHORITIES
CONSTITUTIONAL PROVISIONS
14th Amendment to the Constitution
Regarding Due Process of Law...............2, passim
Article IV., Sec. 1 of the U.S. Constitution
Regarding Full Faith And Credit to State
Court Judgments.....................................2, passim
CASES

Baker v. General Motors Corp., 522 U.S.
222, 233, 118 S.Ct. 657, 139 L.Ed.2d 580
(1998)..............................................................

21

Campbell v. Campbell, 1994 OK 84, 878
P.2d 1037 (Okla. 1994).................................. 11-12

Cox Broadcasting Corp. v. Cohn, 420 U.S.
469, 95 S.Ct. 1029, 43 L.Ed.2d 328(1975)....... 25

In re Prudential Ins. Co. of America,
148 S.W.3d 124 (Tex.2004)..............................

22

Koonce v. Mitchell, 341 Ark. 716,
19 S.W.3d 603 (2000).......................................

11

Lake Ski I-80, Inc. v. Harbowski,
57 N.E.3d 215 (Ohio App. 2015).....................
vii

14

Lizarazo v. Miami-Dade Corrections
and Rehab Dept., 878 F.3d 1008
(11th Cir. 2017)..............................................

19

Martin v. Franklin Capital Corp.,
546 U.S. 132, 139, 126 S.Ct. 707,
163 L.Ed.2d 547 (2005)................................... 18

McSurely v. McClellan, 753 F.2d 88
(D.C. Cir. 1985)............................................... 20

Motley v. Sifford, 547 S.W.3d 470
(Ark. App. 2018).............................................. 26

Muntaqim v. Hobbs, et al, 2017 Ark. 97
(Ark. 2017)......................................................

21

Pennoyer v. Neff, 95 U.S. 714,
24 L.Ed. 565 (1877).........................................

3

Rende v. Kay, 415 F.2d 983,
134 U.S.App.D.C. 403 (D.C. Cir. 1969).........18-20

Schwartz v. Montefiore Hospital and
Medical Center, 305 A.D.2d. 174,
761 N.Y.S.2d 5 (N.Y. App. Div. 2003)............

viii

17

Third Federal Savings and Loan of
Cleveland v. Doles, 2014 Ohio 5181
(Ohio App. 2014).............................................

14

Unicorn Tales, Inc. v. Banerjee,
138 F.3d. 467 (C.A.2 (N.Y.), 1998).............. 18-20

Wells v. Wells, 376 So.2d 750
(Ala. Civ.App.)........................................ 12-14, 24
STATUTES
28 U.S.C. Sec. 1257(a)...................................

1

RULES
Fed R. Civ. P. 25......................................5, passim
Alabama R. Civ. P. 25.................................. 12-13
Arizona R. Civ. P. 25....................................
14
Arkansas R. Civ. P. 25.........................4-6, passim
Colorado R. Civ. P. 25..................................
15
Florida R. Civ. P. 1.260................................
15
Illinois R. Civ. P. 2-1008..............................
15
Indiana R. Trial P. 25.................................
15
Oklahoma Stats 1991, Sec. 2025 (A)(1)......
12

ix

PETITION FOR WRIT OF CERTIORARI
Jim R. Nash, pro se, an attorney, petitions for a writ
of certiorari to review the judgment of the Arkansas
Court Of Appeals, Division II, which was let stand by
the Arkansas Supreme Court by its Denial of Review
on June 20, 2019.
OPINIONS BELOW
The Court of Appeals opinion is reported at Jim R.

Nash v. Norma Nash, Individually and as Trustee of
the Norma F. Nash Living Trust, et al, 2019 Ark. 173
and reproduced at Ap1-20. The Supreme Court order
denying the Writ of Mandamus to the Pulaski County
Circuit Court is reproduced at Ap25-26. The dissent
from the denial of the Writ of Mandamus is reproduced
at Ap23-24. The judgment of the Pulaski County
Circuit Court is reproduced at Ap21-22..
JURISDICTION
The Court of Appeals entered judgment on March
13, 2019. Ap1. The court denied a timely petition for
rehearing on April 17, 2019. Ap27. The Arkansas
Supreme Court denied a timely Petition for Review on
June 20, 2019. Ap28. The denial of the Petition for
Review was entered on the Pulaski County Circuit
Court docket on June 25, 2019. Ap29. This Court has
jurisdiction under U.S.C. Sec. 1257(a).

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This case involves due process of law under the
Constitution's Fourteenth Amendment, and the
requirements of Full Faith and Credit under Article IV,
Sec. 1 of the Constitution to state court judgments.
The U. S. Constitution, Amendment XIV, Sec.1
states: "All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws."
The U. S. Constitution, Article 4, Sec. 1, states: "Full
Faith and Credit shall be given in each State to the
public Acts, Records, and judicial Proceedings of every
other state. And the Congress may by general Laws
prescribe the Manner in which such Acts, Records and
Proceedings shall be proved, and the Effect thereof."

2

STATEMENT OF THE CASE
The credible treatment of jurisdiction is one of our
most precious safeguards against injustice in our
nation. It is basic law that judgments without
jurisdiction are a nullity. At least since Pennoyer v.
Neff, 95 U.S. 714, 24 L.Ed. 565 (1877), determinations
of personal jurisdiction have played an integral part in
issues of due process of law under the Fourteenth
Amendment and Full Faith and Credit under Article
IV, Sec. 1 of the U. S. Constitution. This case
emphasizes once again that the best tool we have to
protect us from the inconsistencies in our systems of
justice and the exacting effects of court judgments is
our due process of law guarantee by way of the
Fourteenth Amendment.
The fact that substitution issues come from death of
a party makes the way a case is handled all the more
important. Death so often automatically triggers
interstate effects in our culture because of various
forms of interests around the country. The effects go
beyond the litigation at hand and cross state lines in
many ways. Especially is that true when a judgment
is involved.
There is no doubt that the decision in this case for the
decedent was without personal jurisdiction because
substitution was refused and defense counsel openly
stated on the record during the trial that the decedent
played no part in the trial. Yet, the trial court entered
3

a judgment in favor of the decedent.
Prior to the trial, petitioner sought to force compliance
with Arkansas' Rule 25 by mandamus from the
Arkansas Supreme Court but that was denied. In the
appeal, petitioner cited several decisions from other
states which dealt with the same substitution issue
and which held such judgments to be a nullity. Also
federal cases were cited to show compliance with the
purpose and intent of the substitution process. None of
these cases are acknowledged in the Opinion from the
state's Court of Appeals and the Supreme Court denied
the petition for review. Essentially, this is a one issue
case in that all the other issues fall under whether or
not this judgment without jurisdiction is a nullity.
Petitioner is an attorney appearing pro se.
Petitioner performed legal work for his brother and
wife in their business operations for twenty three years
with the agreement being that he would be
compensated from their property interests when all
three reached retirement age. The legal services and
other work included substantial litigation in all levels
of state courts and several state agencies. Petitioner's
brother died in 2012 at age 78. Immediately, and
without the knowledge of petitioner, the brother's son
took the wife to defense counsel who placed all property
into a new living trust for the wife and wrote a will
4

appointing son and daughter as executors and trustees.
Payment of any amount to petitioner was refused. Suit
for breach of contract followed. The defendant wife died
over a year prior to trial.
As in most states, the Federal Rule 251 gave birth
to Arkansas' Rule 252 on substitution for a deceased
Federal Rule 25 (a) Death. (1) Substitution if the Claim Is Not
Extinguished. If a party dies and the claim is not extinguished,
1

the court may order substitution of the proper party. A motion for
substitution may be made by any party or by the decedent’s
successor or representative. If the motion is not made within 90
days after service of a statement noting the death, the action by
or against the decedent must be dismissed.
Arkansas Rule 25. Substitution Of Parties. (ARCP)
(a) Death. (1) If a party dies and the claim is not thereby
extinguished, the Court may order substitution of the proper
parties. The motion for substitution may be made by any party or
by the successors or representatives of the deceased party, and
such substitution may be ordered without notice or upon such
notice as the Court may require. Unless the motion for
substitution is made not later than ninety (90) days after the
death is suggested upon the record by the service upon the parties
of a statement of the fact of death, the action may be dismissed as
to the deceased party.
2

(2) Upon the death of a plaintiff the proper party for substitution
shall be his personal representative or, where the claim has
passed to his heirs or to his devisees, the heirs or devisees may be
substituted for the deceased party. Upon the death of a defendant
in an action wherein the claim survives against his personal
representative, the personal representative shall be the proper
party for substitution. Except in an action for the recovery of real
property only, or for the adjudication of an interest therein, the

5

party during litigation. A timely motion for
substitution was filed stating that a special
administrator was warranted and asking the court to
appoint the same son and daughter as co-special
administrators. Petitioner repeated to the court the
exact reasoning for Rule 25, i.e., time is of the essence
and the Rule provides procedure that is fair to both
sides with opportunities for changes that may need to
be made at a later time. Petitioner also reminded the
court that defense counsel had refused any discovery
for six months. Defense counsel argued against
substitution stating only that "special administrators
are usually appointed to get assets for the estate, not

heirs,
devisees
or
personal
representative
may
be
the proper parties for substitution as the Court may determine.
Where the deceased party is acting in the capacity as personal
representative, his successor shall be the proper party for
substitution.
(3) Upon the death of any party the Court before which such
litigation is pending may, upon the motion of any party, appoint a
special administrator who shall be substituted for the deceased
party. The powers of such special administrator shall extend only
to the prosecution and defense of the litigation wherein he is
appointed. No special administrator shall be appointed where
there is a general personal representative subject to the
jurisdiction of the Court for the deceased party. Where such a
general personal representative qualifies after the appointment of
a special administrator, the general personal representative shall,
upon the motion of any party, or the general personal
representative, be substituted for such special administrator.
Costs taxed against a special administrator shall not constitute a
personal obligation. AR Civil Proc. Rule 25 Substitution of Parties
(Arkansas Rules of Civil Procedure (2018 Edition))

6

defend estates" and the matter should be continued as
a separate action.
The trial court refused to follow Arkansas' Rule 25
and appoint as co-special administrators the two heirs
who were named as executors and trustees in
decedent's will. Instead, the court directed petitioner to
amend the complaint and serve the "proper parties".
Petitioner filed and served an amended complaint
naming the same people as estate administrators and
as co-defendants for tortious interference with the
contract and raising the issue of the violation of
petitioner's rights to due process of law under the
Fourteenth Amendment.
Without a motion or even notice, defense counsel
secured an order dismissing the claim against the
decedent without prejudice on the grounds that "proper
parties" is limited to probate representatives and no
representative under probate law had been served
within the ninety days from the suggestion of death.
The 90 day period as calculated by the defense ended
34 days after the hearing on substitution. Petitioner
timely filed a motion for reconsideration of the order
that had dismissed the claim against the decedent, and
in the pleadings reminded the circuit court of section
(3) under Rule 25 (ARCP) which counters any claim
7

that substitution under the rule is limited to probate
representatives.3 Petitioner again noted the violation
of plaintiff's right to due process under the Fourteenth
Amendment.
Petitioner could not get a hearing on the motion so
he then filed a petition for certiorari and mandamus
with the Arkansas Supreme Court, seeking to force
compliance with Arkansas' Rule 25, and citing the
abuse of petitioner's rights to due process of law and
access to the courts in violation of Article 2, Section 8
of the Constitution of the State of Arkansas and of the
Fourteenth Amendment to the U. S. Constitution. The
entire record at the time was presented with the
Petition but the writ was denied with one descent
noting that there was no jurisdiction of the decedent,
the substitution should be granted, and the majority
believed the petitioner could still appeal. Ap23.
Subsequent amendments to the complaint used the
word "substitutes" in anticipation of a court order but
that was never granted. At all points in all of the
proceedings after the dismissal of the decedent, defense
counsel repeatedly contended that there was no

3

(3) Upon the death of any party the Court before which
litigation is pending may, upon the motion of any party, appoint
a special administrator who shall be substituted for the deceased
party... Where such a general personal representative qualifies
after the appointment of a special administrator, the general
personal representative shall... be substituted for such special
administrator.
8

substitute for the decedent appointed in the case. Also
late in the trial of what remained of the case which was
tortious interference against the children of decedent,
defense counsel stated to the court on the record that
the decedent "is not here. She's not part of this." 4
Clearly, the decedent's role was in name only as it
related to the tortious interference claim against the
other defendants. Evidence of the existence of a
contract basis for tortious interference was offered by
the petitioner by extensive documentation. The defense
was initially oral denials of any work by petitioner,
then became "paid in cash" for a great deal of work. The
defense offered no documentation.
The decedent was the only entity with whom
petitioner had a contract. Two verdict forms were
submitted to the jury based on interference with the
contract and referencing two different groups. One
form referenced the decedent and her substitutes and
heirs acting together. The second form referenced the
substitutes and heirs acting together. There was no
verdict form for the decedent acting as an individual
because she was not a party to the proceedings, and
obviously, the defense would have objected to such a
form. The jury returned a verdict for the defense on the

4

"Norma Nash is not here. She's not part of this. This is only

against the trust and the four children, individually and as
trustees." (R.318)

9

two forms. Defense counsel initiated the probate case
for the decedent the next day. That took place a year
and a half after her death.
As is the custom in Arkansas, the defense counsel
drafted the proposed judgment for the court. The
proposal ended with the statement, "All claims by
Plaintiff against the Defendants are dismissed with
prejudice."
Petitioner refused to approve of the
proposed form of the judgment but it was accepted by
the court and entered. Ap21. It is now being used to
block petitioner's timely claim in the probate
proceeding for the decedent's estate.
The Arkansas Court of Appeals upheld the
judgment and refused to rule on the issue of personal
jurisdiction saying only that the verdict resolved all
issues. The Arkansas Supreme Court denied review on
June 20, 2019. Ap28.
Accordingly, the heart of the case turns on whether
the judgment for the decedent without personal
jurisdiction is a violation of petitioner's rights to both
substantive and procedural due process of law under
the Fourteenth Amendment to the U. S. Constitution.
That depends in great part on whether the defense can
take the position that the decedent played no part in
the trial, and then be allowed to form a judgment in her
favor that dismisses all claims of the petitioner with
prejudice.
10

REASONS FOR GRANTING THE PETITION
I.

The State Court Did Not Have Personal
Jurisdiction Of The Decedent And Judgment In
Her Favor Is A Nullity.

In the decision herein by the Arkansas Court of
Appeals, it is said that petitioner based his appeal on
just the consideration of subject matter jurisdiction.
Actually, petitioner cited one case, Koonce v. Mitchell,
341 Ark. 716, 19 S.W.3d 603 (2000), on subject matter
jurisdiction but essentially all of the brief was on the
nullification of judgments in other states which had
been rendered without personal jurisdiction. Three of
the noted cases were from the states of Oklahoma,
Alabama, and Ohio. These are only a few of cases
condemning the treatment of substitution procedure as
we saw it in this case and these were quoted at great
length in appellant's brief but none of these cases nor
the nullity principle are discussed in the Opinion.
Though petitioner tried to establish personal
jurisdiction by substitution, he was unable to do so.
Whether or not there was court error in denying
substitution, the result is beyond question: the
judgment in her favor is a nullity under the law.
Nowhere in the Opinion is there a finding of personal
jurisdiction of the decedent.
In Campbell v. Campbell, 1994 OK 84, 878 P.2d
1037 (Okla. 1994), a case where a party died during
proceedings at trial level, the Supreme Court of
Oklahoma, after quoting much of the language in
11

Alabama’s Wells v. Wells, infra, stated as follows:
Based on federal application of Rule 25 and
the interpretation and application given it by
persuasive state law, we conclude that the
trial court’s authority in the instant case was
suspended by Appellee’s death and any
subsequent action taken by the court could only
follow the substitution of Appellee by her
representative pursuant to the procedure
outlined in 12O.S.1991, Sec. 2025(A)(1).
* * *
The instant action was suspended with Appel
lee’s death. There is no authority under which
any further proceedings could have taken
place until a substitution was made following
the suggestion of Appellee’s death as outlined
in Sec. 2025. The action halts at the party’s
death and can only be reactivated by the
proper application of Sec. 2025. Since proper
application was not made, the action remains
(suspended) with Appellee’s death.
Indeed, in the often cited Wells v. Wells, 376 So.2d
750 (Ala. Civ. App.), a 1979 case which involved the
death of a party during litigation and the court’s
application of Alabama’s own "Rule 25(a) ARCP", the
court said:
12

The issue before this court, although not raised
by either party through their able counsel,
is whether the trial court had jurisdiction to act
where a party before the court dies and proper
substitution of parties under Rule (25(a), was
not made. We determine that the trial court did
not have authority to proceed, in this instance,
and reverse and remand.
The question of jurisdiction is always
fundamental, and if there is an absence of
jurisdiction over either the person or the subject
matter, a court has no power to act. (Case cited).
* * *
In this instance, there was subject matter
jurisdiction in the instant case. However, there
was no party-defendant before the court. By
statute, if a claim survives it is against the
personal representative of the deceased. No such
representative was personally served under
ARCP and no personal representative was
substituted as defendant under Rule 25(a).
* * *
In the instant appeal, there is nothing in the
record nor is it suggested that the deceased’s
attorney had status as the legal representative
of the decedent’s estate. The authority of
defense counsel to act for the decedent was
terminated by the decedent’s death. (Case cited.)
Therefore, even under the most liberal
construction of jurisdiction, there was no party13

defendant before the court.
It
would
be
possible,
under
proper
circumstances, for the personal representative
of the deceased to waive the formal substitution
of Rule 25(a) and for the court to obtain
jurisdiction over such a person. (Cases cited.)
That is, if the “proper party” actually defends the
suit, such a defense may constitute a waiver by
that “proper party” of the right to a formal
substitution. However, in the instant case no
such personal representative defended the
husband’s petition. Therefore, no waiver
occurred and the court did not obtain
jurisdiction under any theory of waiver.
The case of Third Federal Savings and Loan of
Cleveland v. Doles, 2014 Ohio 5181 (Ohio App. 2014),
involved a foreclosure action where a summary
judgment was entered several months after the
defendant died though there had been no substitution
of the proper parties. On appeal by a subsequently
appointed executor of the decedent’s estate, the Ohio
Court of Appeals held the judgment to be void. Other
cases from Ohio in their application of Ohio Civil Rule
25 present the same result. See Lake Ski I-80, Inc. v.
Habowski, 57 N.E. 3d 215 (Ohio App. 2015).
Rule 25 (FRCP) sets the standards for substitution
of parties to litigation. Some other examples of the
close versions of Rule 25 (FRCP) are Arizona Rules of
14

Civil Procedure 25, Colorado Rules of Civil Procedure
25, Indiana Rules of Trial Procedure, Rule 25, Florida's
Rules of Civil Procedure, Rule 1.260, Illinois Rules of
Civil Procedure, Rule 2-1008.
At no point during the trial of this case was there
any contention by the defense that the trial court had
personal jurisdiction of the decedent after her death.
In fact, it would have been outrageous to do so since
defense counsel's position was just the opposite.
During his motion for directed verdict at the end of
plaintiff's case, he stated to the court explicitly and on
the record that the decedent "is not here. She's not part
of this." (R318)
It is difficult to understand why defense counsel's
statement was not mentioned in the Opinion. It was
argued explicitly in the appellant's briefs. The
statement is part waiver and part admission and it is
overwhelming in its importance to the issue of the lack
of personal jurisdiction of the decedent. Additionally,
the trial record shows that at the time that the
statement was made, petitioner offered no argument
that there was personal jurisdiction of the decedent.
Furthermore, at no time in the history of this case
did petitioner allege that he had a contract with any
entity other than the decedent. The defense is on record
15

as claiming there was no privity of contract between
petitioner and the trust. Moreover, the trustees were
named because of the allegation of fraudulent transfer
of property into the decedent's new trust. But the
petitioner's instruction on that issue was refused by the
trial court. (R 359-362)
Due process under the Fourteenth Amendment was
raised before the trial court, in the Petition For
Mandamus to the Arkansas Supreme Court, and after
the trial by motions. All of this was argued again in the
appellant's briefs.
II.

The Abuse Of The Substitution Process Is In
Violation Of Due Process Of Law Under The
Fourteenth Amendment And In Conflict With
The Full Faith And Credit Provisions Of The
U. S. Constitution.

The arbitrary treatment of substitution in this case
is an important error that can best be illustrated by the
positions of the two sides at the hearing on May 3, 2016
on petitioner's motion for substitution. Petitioner
contended that Arkansas' Rule 25, as all of them, sets
a script to provide justice to both sides at a point in a
case when time is of the essence and the Rule allows
the parties to subsequently make changes as they may
be needed. Defense counsel argued that substitution
was not the proper course because Rule 25 is only for
16

the purpose of allowing parties to gather assets and the
case should proceed as a separate action. (CR166-170)
Yet, that statement is in conflict with the provisions
and intent of the Rule, particularly Sec. (3).5
There was no evidence or claim of any prejudice
should the motion be granted.6 Yet the Court refused
to appoint as special administrators the two named
executors in decedent's will and instead directed
petitioner to file an amended complaint against the
"proper parties".
Petitioner soon learned that "proper parties" would
be limited by the court to a probate representative.
Defense counsel, without a motion or even notice,
secured an order from the court dismissing without
prejudice the claim against the decedent because no
estate representative had been served.

5

(3) Upon the death of any party the Court before which litigation
is pending may, upon the motion of any party, appoint a special
administrator who shall be substituted for the deceased party...
Where such a general personal representative qualifies after the
appointment of a special administrator, the general personal
representative shall... be substituted for such special
administrator.
6 "Given the preference for deciding cases on their merits, a motion
for substitution should be granted in the absence of prejudice."
Schwartz v. Montefiore Hospital and Medical Center , 305 A.D.2d
174, 761 N.Y.S.2d 5 (N.Y. App. Div., 2003).

17

Essentially, the trial court's discretion was
delegated to the defense.7 Petitioner was given the
burden of establishing within a few days a probate
proceeding over and against the obvious intentions of
the defense counsel and the two executors named in the
decedent's will. They were also trustees of her trust
which contained all of her property and thus, were in a
strong position to contest and delay every step of such
an effort. These are the very circumstances that
substitution rules are designed to avoid, as noted in
both Rende and in Unicorn Tales, Inc., infra.
Some of the language from the federal courts
concerning Rule 25 (FRCP) seems especially pertinent
to the events in this case. In the case of Rende v. Kay,
415 F.2d 983, 134 U.S. App.D.C. 403 (D.C. Cir., 1969),
the court required a clear designation in the suggestion
of death of the representatives of the decedent's estate
in order to avoid the tactic of obstructing the
application of Rule 25. Clearly, the Rule provides a
script designed to provide justice to both sides:
In our opinion the Rule, as amended, cannot
fairly be construed, as the defendant's attorney
argues, to make his suggestion of death
operative to trigger the 90-day period even
though he was neither a successor or
representative of the deceased, and gave no
7

"Discretion is not whim, and limiting discretion according to

legal standards helps promote the basic principle of justice that
like cases should be decided alike." Martin v. Franklin Capital
Corp., 546 U.S. 132, 139, 126 S.Ct. 707, 163 L.Ed.2d 547 (2005).

18

indication of what person was available to be
named in substitution as a representative of the
deceased. Counsel's construction would open
the door to a tactical maneuver to place upon the
plaintiff
the
burden
of
locating
the
representative of the estate within 90 days.
* * *
The tactic of the defendant's attorney would
place on plaintiff the burden, where no
conventional representative was appointed for
the estate in probate court, of instituting
machinery in order to produce some
representative of the estate ad litem, pending
appointment of the representative contemplated
by law of the domicile of the deceased.
In 1998, in the case of Unicorn Tales, Inc. v.
Banerjee, 138 F.3d 467 (C.A.2 (N.Y.), 1998) the Second
Circuit disagreed with the requirement that an estate
(probate) representative be named in the suggestion of
death but based its difference on the discretion given to
the courts under Rule 6(b) to extend time periods for
required acts stating, "Were there no other manner in
which to avoid the particular dilemma identified by the
court in Rende, we might see the wisdom of the
requirement."
In the more recent case of Lizarazo v. Miami-Dade
Corrections and Rehab Dept., 878 F.3d 1008 (11th Cir.
2017), cases from several other circuits are cited which
show the approach by the circuit courts to Rule 25 to
consistently allow more time under Rule 6(b) to avoid
baring "otherwise meritorious actions." One of the
19

cases cited is the Per Curiam in McSurely v. McClellan,
753 F.2d 88 (D.C. Cir. 1985). Citing Rende v. Kay,
supra, the McSurely court held that two widows named
in two decedents' wills as executors were "proper
parties" even though they were not appointed in estate
proceedings as estate representatives.
Consistent with Unicorn Tales, Inc., petitioner
filed timely pleadings asking the court to set aside the
order dismissing the decedent from the case and noting
that Arkansas Rule 25 is not limited to probate
representatives. (CR202) Petitioner's requests for a
hearing were not granted. Then petitioner's petition to
the Arkansas Supreme Court to force compliance with
the substitution process by mandamus was denied with
one dissent indicating that there was no jurisdiction of
the decedent, that substitution should be ordered, and
that the majority believed petitioner could still appeal.
Ap23.
After the trial, the Arkansas Court of Appeals, in
rendering its Opinion upholding the trial court's
refusal of the substitution process, cited sections (1)
and (2) of Rule 25 but omitted any reference to the
language of section (3) quoted above. Clearly,
Arkansas' Rule 25 does not need to be revised in order
to be consistent with the common purpose of the
substitution process across the country, which is to
provide a script that is fair to both sides and not to give
an advantage to either side. But when a good rule
20

is misapplied, we have the Fourteenth Amendment to
force compliance with the underlying national purpose
of the Rule.8
Under the Full Faith and Credit provisions of the
U. S. Constitution, the states must honor the legal
proceedings of other states, and the death of a party in
one state can affect property interests and legal
proceedings in other states for some time. With respect
to judgments, "the full faith and credit obligation is
exacting." Baker v. General Motors Corp., 522 U.S.
222, 233, 118 S.Ct. 657, 139 L.Ed.2d 580 (1998).
Rule 25 (FRCP) has been followed by many states
which have enacted highly similar rules for resolving
substitution problems during litigation. It is the
commonality of the definition of due process of law by
way of the Fourteenth Amendment that provides the
best tool to avoid needless conflicts over bad judgments
being forced upon several other states. In just this one
case alone, the evidence and argument for substitution
were substantial and the reason for denying
Recently, in the case of Muntaqim v. Hobbs, et al, 2017 Ark.
97 (Ark. 2017), the Arkansas Supreme Court said, 'When the
Arkansas Rules of Civil Procedure are "substantially identical" to
the corresponding Federal Rules of Civil Procedure, we may
consider federal interpretations.' Unfortunately, in this case the
Arkansas courts did not comply with Muntaquim in their
treatment of Rule 25 of Arkansas Rules of Civil Procedure, even
though it provides essentially the same script for such
proceedings as does Federal Rule 25.
8

21

substitution was the defense's misstatement of the law
and the purpose of the Rule.
Petitioner respectfully contends that the trial court
abused its discretion and committed reversible error in
refusing the substitution process and in delegating its
discretion to the defense. But court error or not, after
her death, there was no personal jurisdiction of the
decedent and the judgment in her favor is void.
III.

Petitioner Did Not Waive Jurisdiction Of The
Decedent, Revivor, Or Substitution, And At No
Time During Trial Or On Appeal Did The
Defense Claim Waiver Of Any Kind.

It is well established that waiver has to show a well
understood relinquishment of a known right. It has
also been held that waivers of constitutional rights
must not only be voluntary but must be knowing,
intelligent acts done with sufficient awareness of the
relevant circumstances and likely consequences. In re
Prudential Ins. Co. of America, 148 S.W.3d 124 (Tex.
2004). In order for the doctrine of waiver to apply here,
petitioner would have to knowingly and pointedly
relinquish a known right in his favor. By operation of
law, the decedent was not involved in the proceedings
after her death. Petitioner had no right or power to
waive jurisdiction or there would have been no petition
22

to the Arkansas Supreme Court for writ of mandamus.
The Opinion alleges two separate waivers in this
case, but upon examination, neither alleged waiver
is cited by the court to actually show personal
jurisdiction of the decedent after her death. The
Opinion uses the same basis for each alleged waiver,
i.e., that petitioner amended his complaint and went to
trial against Norma Nash, the decedent, without
substitution. Ap10-11.
First is the alleged waiver of revivor on that basis.
Yet, that is contrary to the language of the trial court's
order directing petitioner to amend his complaint and
that the filing would constitute revivor, which
petitioner did. Additionally, if there was any waiver of
the revivor issue, it was waived by the defense, not the
petitioner. The defense did not argue lack of revivor
and went to trial without such a contention.
Second is the finding at the same point in the
Opinion that petitioner waived the substitution issue
by amending his complaint and going to trial against
Norma Nash, the decedent. Ap10-11. The case law
cited is a catchall for waivers but does not apply here
because petitioner did not go to trial against the
decedent without there being a substitute. The
decedent was not a defendant in the trial. She had been
deceased for over a year and there was no substitution.
23

The defense never claimed waiver and the Opinion's
view on waiver ignores the statement of defense
counsel that the decedent "is not here. She's not part of
this."
Additionally, this second alleged waiver presents a
conflict within the Opinion itself in that it treats at
length the petitioner's contention of alleged error in the
trial court's refusing substitution and then, at the same
time, holds that petitioner abandoned that issue.
Furthermore, only someone who has a right and lawful
power to waive jurisdiction of a decedent could do so,
such as a probate representative for the decedent as
was noted in Wells v. Wells, supra. If petitioner had
such a power he would have used it before trial. Again,
logic has to apply to the doctrine of waiver as to
anything else or it becomes a tool of injustice.
Petitioner could not waive a right that he did not
possess.
In truth, the only evidence of waiver involved in this
case is the openly stated and made with full knowledge
waiver by defense counsel relinquishing any claim for
an attorney's fee based on breach of contract by the
decedent. As he said, "She's not part of this." Although,
the Opinion sends the case back for the ministerial
assessment of an attorney's fee, the constitutional
issues which should halt that effort are here and now
before the United States Supreme Court. Thus, the
24

rules as to finality are satisfied in full. See Cox
Broadcasting Corporation v. Cohn, 420 U.S. 469, 95
S.Ct. 1029, 43 L.Ed.2d 328 1975).
IV.

Why The Main Issue On Appeal Was Ignored.

It began with the Opinion's changing of the
Appellant's Points On Appeal at page 5 of the published
Opinion. Ap5-6. After that, the nullity issue is ignored.
Why the statement by defense counsel that the
decedent had no part in the trial was also ignored is
very hard to understand. It was set out in the briefs
and its significance was clear. The following comment
in the Opinion illustrates the problem:
...the dismissal was rendered harmless because
those claims were ultimately tried to a jury and
a defense verdict returned. There is no
explanation of how this happened when the
claims had been earlier dismissed. Both sides
acknowledge in their briefs that the contract
claim was tried to the jury. Ap11.
That is incorrect. At no point in the briefs did petitioner
agree that the trial of the case went beyond tortious
interference. Petitioner's briefs said otherwise,
repeatedly. As one example, petitioner stated at page
10 of the Argument section in the Appellant's Brief:

25

Obviously, those paragraphs set out under the
"Breach Of Contract" section and the "Equitable
Or Constructive Trust" section in the complaint became ineffectual with the death of
Norma Nash and the lack of substitution for
Norma Nash. The remaining claims were for
intentional interference by the named defendants in facilitating and encouraging the
decedent in what she did.
The trial court as well did not seem to distinguish at
times between the two theories of recovery. Especially
was that true with defense counsel's change in position
after the trial in an attempt to obtain an attorney's fee
that was only available on a contract claim against the
decedent. There was no substitution for the decedent
and as defense counsel had stated, she was not a party.
Though the term substitutes was used in amendments
in anticipation of an order to that effect, that could not
accomplish substitution for a decedent in litigation.
Motley v. Sifford, 547 S.W.3d 470 (Ark. App. 2018).
As is the custom in Arkansas, the defense counsel
was allowed to draft the proposed judgment for the
court. But it ended with the statement, "All claims by
Plaintiff against the Defendants are dismissed with
prejudice." Petitioner refused to approve the proposed
form but it was accepted by the court and entered.
Ap21-22. Two weeks later defense counsel moved for
26

an attorney's fee based on decedent's contract with the
petitioner, the only contract ever in the case.
Again, at no point in the appeal did petitioner argue
or agree that the trial went beyond tortious
interference. Furthermore, there has not been any
contention by the defense or by the courts that the trial
court regained jurisdiction of the decedent after her
death. In the appellees' brief to the Court of Appeals
they do not claim personal jurisdiction but say that her
name was on one of the jury forms so a judgment could
be rendered "for" her. Yet, for justice to be served,
jurisdiction must precede a verdict. Clearly, even from
the defense, the judgment for the decedent is without
personal jurisdiction and is a nullity.
CONCLUSION
For the foregoing reasons, the Court should grant a
writ of certiorari.
Respectfully submitted,
J. R. Nash
Pro Se
Nash Law Firm
700 East Ninth St.
Little Rock, AR 72202
Ark. Bar No. 70051
(501) 375-7608
nashlaw@sbcglobal.net
27

